U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           ECONOMIC DEVELOPMENT
                 ADMINISTRATION

            Internal Controls over Consultant
               Services Provided to Clients by
         Trade Adjustment Assistance Centers


           Audit Report No. STL-14322-1/September 2001




                           PUBLIC
                           RELEASE



                 Office of Audits, Seattle Regional Office

U.S. Department of Commerce                                              Final Report No. STL-14322

Office of Inspector General                                                          September 2001




INTRODUCTION

The Trade Act of 1974, as amended, which authorized the President to negotiate
international trade agreements, has resulted in three “Free Trade Agreements.”
Recognizing that free trade policy can result in injuries to U.S. businesses through
market, sales, and job losses, the act also created the Trade Adjustment Assistance (TAA)
program to mitigate the negative effects on affected manufacturing companies by
providing technical assistance.

The Economic Development Administration funds 12 regional Trade Adjustment
Assistance Centers under cooperative agreements to provide business advisory services,
which include problem diagnosis and recovery strategies, and implementation assistance,
which includes the hiring of consultants to provide technical assistance. Each of the
centers receives about $600,000 to $1,000,000 in EDA funds annually to pay
administrative expenses and a share of the cost for technical assistance. The centers and
clients share the cost of technical assistance on a 50-50 or 75-25 percent basis, up to a
maximum limit of $20,000 per client, without prior approval from EDA. The client pays
the lesser share of the cost.

OBJECTIVES, SCOPE, and METHODOLOGY

Within the last year, the Northwest TAA Center experienced two instances of contract
non-compliance: one in which the consultant failed to provide the contracted-for services,
and one in which the client failed to pay its share of costs for consultant services. At
EDA’s request, the Northwest Center reported these instances to the Office of Inspector
General. We conducted a review to determine whether the internal controls at the
Northwest Center adequately ensured that consultants provided agreed-to technical
assistance and that clients paid for the technical assistance provided. We expanded our
review to include the other 11 TAA centers in order to compare their internal control
processes.

During May and June 2001, we conducted on-site work at the Northwest Center in
Seattle, and contacted the other 11 centers by telephone. In conducting our review at the
Northwest Center, we did not utilize computer-processed information, but obtained and
verified relevant information from interviews, case files, annual reports submitted to
EDA, and the TAA program Internet web page. Based on our field work, we concluded
that the data was sufficiently reliable for use in meeting our review objectives.

This review was conducted in accordance with Government Auditing Standards and was
performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

                                              2

U.S. Department of Commerce                                                 Final Report No. STL-14322

Office of Inspector General                                                             September 2001




INTERNAL CONTROL PROCESSES NEED IMPROVING

As shown in Table 1 on page 4, although the 12 centers utilize different methods to
monitor contract compliance by their clients and consultants, most methods generally rely
upon notification by either the consultant or the client of any instances of non
compliance. EDA program guidance gives the centers the responsibility for monitoring
implementation assistance, but does not require a specific process for tracking consultant
service performance and client payment for services rendered. The guidance only
describes a process that has the centers record client payments and monitor the contract to
ensure that the client is current in its payments to the consultant.

Most Centers Need to Improve
Contract Compliance Monitoring

In the two cases reported to us by the Northwest Center, its contract compliance
monitoring process relied upon consultants reporting instances of client non-payment, and
clients reporting dissatisfaction with consultants, and providing photocopies of their
checks to consultants as proof of payment. According to center officials, their assurance
process (1) did not result in timely notification of contract non-compliance, (2) required
significant staff time in follow-up actions, and (3) resulted in threats of legal action
against the center by both the consultants and the clients.

After expanding the scope of our review to include the other 11 centers, we found that the
monitoring systems of many of the other centers also did not provide adequate assurance
of contract compliance by consultants and clients. At 9 of the 12 centers, contract
compliance monitoring relied on verbal notification to the centers, from either the
consultant or the client, of contract compliance. Based upon this verification, the center
paid its share of the contract payment.

Three Centers Have More Effective Compliance Processes

We found that three centers used a documented monitoring process consisting of written
certifications that consulting services were adequate and client payments were made:

       �	      At the Western Center, the consultant sends the invoice, on which the
               client certifies that the consultant’s work was satisfactory and the client’s
               share of the payment was made.




                                               3

U.S. Department of Commerce                                                   Final Report No. STL-14322

Office of Inspector General                                                               September 2001



                  TABLE 1: TRADE ADJUSTMENT ASSISTANCE CENTERS


    NAME/             EDA                 CONTRACT COMPLIANCE MONITORING METHODS
   LOCATION           FUNDING                 (methods that can be improved are in italics)

Western TAAC,         $ 990,000   Consultant sends TAAC copy of invoice on which client certifies
Los Angeles, CA                   (1) consultant work was acceptable, and (2) client payment made.

Mid-America             847,000   Client sends the consultant’s invoice and client’s share of payment
TAAC,                             (payable to TAAC) to TAAC. TAAC sends total payment to
Lee’s Summit, MO                  consultant.

New England           1,133,000   Consultant sends invoice for TAAC share that includes a signed
TAAC,                             confirmation by client that its share has been paid. TAAC
Boston, MA                        withholds 10 percent of amount until the contract is completed.

Northwest TAAC,         899,000   Consultant verbally notifies TAAC if the client’s payment is not
Seattle, WA                       made. Client sends TAAC a photocopy of payment check to
                                  consultant.

Rocky Mountain          888,000   Consultant sends an invoice to TAAC for its payment. TAAC
TAAC, Boulder,                    verbally verifies with client that the consultant’s work is satisfactory
CO                                and that the client has paid its share.

Southwest TAAC,         898,000   Consultant sends an invoice to TAAC for its share. TAAC verbally
San Antonio, TX                   verifies with client that the consultant’s work is satisfactory.

Midwest TAAC,         1,018,000   Consultant sends written notification to TAAC that client payment
Chicago, IL                       made. TAAC verbally verifies with client that the consultant’s work
                                  is satisfactory.

Great Lakes             698,000   Consultant sends an invoice to TAAC for its share. TAAC verbally
TAAC,                             verifies with client that the consultant’s work is satisfactory and that
Ann Arbor, MI                     the client will pay its share.

Southeastern          1,008,000   Consultant sends an invoice for TAAC share, and will include
TAAC,                             notice if client fails to pay. TAAC verbally verifies with client that
Atlanta, GA                       the consultant’s work is satisfactory.

New York State        1,000,000   Consultant sends an invoice for TAAC share that includes a
TAAC,                             statement that the client has paid its share. TAAC verbally verifies
Binghamton, NY                    with the client that the consultant’s work is satisfactory.

New Jersey              623,000   Consultant’s invoice is sent by TAAC to client. TAAC obtains
TAAC,                             client’s verbal “OK” to pay.
Trenton, NJ

Mid-Atlantic            810,000   Consultant invoices the TAAC for its share. Client sends the TAAC
TAAC,                             a photocopy of both sides of client payment check to consultant.
Blue Bell, PA                     TAAC verbally verifies with the client that the consultant’s work is
                                  satisfactory.



                                            4

U.S. Department of Commerce                                                 Final Report No. STL-14322

Office of Inspector General                                                             September 2001




          �	   At the Mid-America Center, the client sends the consultant’s invoice and
               the client’s share of payment, payable to the center. Upon receipt, the
               center sends the total invoice payment to the consultant.

          �	   At the New England Center, the consultant sends the invoice, on which the
               client certifies that its share of payment has been made. The center then
               sends its share of the payment to the consultant, less 10 percent, which is
               withheld until the contract is completed.

CONCLUSION

More effective internal controls can be easily instituted to protect the government’s
interests. Specifically, obtaining written certifications or other documentation from
consultants and clients on the receipt of payment and satisfactory services, respectively,
as a contract monitoring process can protect the centers from contract non-compliance
problems as encountered by the Northwest Center, and reduce follow-up actions by center
staff. The methods used by the Western, Mid-America, and New England Centers
provide a greater degree of assurance that both consultants and clients are complying with
the contract without placing an undue burden of additional requirements on either party or
the centers. The documentation also may provide support in defense of future threats of
legal actions and reduce follow-up actions required of the centers.

RECOMMENDATIONS

We recommend that the Deputy Assistant Secretary for Program Operations:

1. 	      Develop a uniform system of controls as part of the contract monitoring
          process that includes (a) client certifications that consultant work is satisfactory
          and (b) evidence that consultants have received client payments.

2. 	      Ensure that these new controls are implemented at each center.


EDA COMMENTS

EDA concurred with the findings and recommendations contained in the draft audit
report. A copy of EDA’s response is included as an attachment to this report. The
Assistant Secretary for Economic Development stated in the agency’s response that EDA
proposes to revise Section V “Cost-Sharing by Firms” of all future standard “Scope of
Work” statements for each TAAC to comply with the intent of our recommendations.
Although EDA did not propose to amend existing grants, the Assistant Secretary agreed
to send a memorandum to all TAACs advising them of the upcoming change and
encouraging them to begin implementing the new procedures immediately to avoid
similar problems.


                                                5

U.S. Department of Commerce                                             Final Report No. STL-14322

Office of Inspector General                                                         September 2001




OIG COMMENTS

We appreciate EDA’s positive response to the draft audit report and the cooperation
extended by EDA staff and the TAACs during the course of the audit. EDA’s response
contains a detailed Audit Action Plan as required by Department Administrative Order
213-5. We agree with the actions EDA has taken, as well as those it plans to take, and
consider this audit to be resolved.

Attachment


cc:	      David L. Temple, Jr., Deputy Assistant Secretary for Program Operations
          Lewis Podolske, Acting Dir., Planning and Development Assistance Division
          Gary G. Kuhar, Executive Director, NW TAAC, Seattle
          Mary C. Pleffner, Acting Assistant Secretary for Economic Development
          Patricia Flynn, EDA Audit Liaison, Director, Operations Review and Analysis
          Division




                                               6

U.S. Department of Commerce   Final Report No. STL-14322

Office of Inspector General               September 2001




                                       Attachment
U.S. Department of Commerce   Final Report No. STL-14322

Office of Inspector General               September 2001

